App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1124
-----------------------------------------------------------------------

UMG RECORDINGS, INC.; CAPITAL RECORDS, LLC;
WARNER BROS. RECORDS INC.; ATLANTIC RECORDING CORPORATION; ELEKTRA ENTERTAINMENT GROUP INC.; FUELED BY RAMEN
LLC; NONESUCH RECORDS INC.; SONY MUSIC
ENTERTAINMENT; SONY MUSIC ENTERTAINMENT US LATIN LLC; ARISTA RECORDS LLC;
LAFACE RECORDS LLC; ZOMBA RECORDING LLC,
Plaintiffs – Appellants,
v.
TOFIG KURBANOV, d/b/a FLVTO.BIZ, a/k/a
2CONV.COM; DOES 1-10,
Defendants – Appellees.
COPYRIGHT ALLIANCE; INTERNATIONAL
ANTICOUNTERFEITING COALITION; MOTION
PICTURE ASSOCIATION OF AMERICA, INC.;
ASSOCIATION OF AMERICAN PUBLISHERS,
Amici Supporting Appellants,
ELECTRONIC FRONTIER FOUNDATION,
Amicus Supporting Appellees.
-----------------------------------------------------------------------

App. 2
Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Claude M.
Hilton, Senior District Judge. (1:18–cv–00957–CMH–
TCB)
-----------------------------------------------------------------------

Argued: April 24, 2020

Decided: June 26, 2020

-----------------------------------------------------------------------

Before GREGORY, Chief Judge, FLOYD, and THACKER,
Circuit Judges.
-----------------------------------------------------------------------

Reversed and remanded by published opinion. Chief
Judge Gregory wrote the opinion, in which Judge Floyd
and Judge Thacker joined.
-----------------------------------------------------------------------

ARGUED: Ian Heath Gershengorn, JENNER &
BLOCK LLP, Washington, D.C., for Appellants. Evan
M. Fray-Witzer, CIAMPA FRAY-WITZER, LLP, Boston,
Massachusetts, for Appellees. ON BRIEF: Ishan K.
Bhabha, Alison I. Stein, Jonathan A. Langlinais,
JENNER & BLOCK LLP, Washington, D.C., for Appellants. Valentin Gurvits, BOSTON LAW GROUP, PC,
Newton, Massachusetts; Matthew Shayefar, LAW OFFICE OF MATTHEW SHAYEFAR, PC, West Hollywood, California, for Appellees. David E. Weslow,
Megan L. Brown, Ari S. Meltzer, WILEY REIN LLP,
Washington, D.C., for Amicus Association of American
Publishers. Robert H. Rotstein, Los Angeles, California, J. Matthew Williams, MITCHELL SILBERBERG
& KNUPP LLP, Washington, D.C., for Amicus The
Motion Picture Association of America, Inc. Michael E.

App. 3
Kientzle, Washington, D.C., John C. Ulin, ARNOLD &
PORTER KAYE SCHOLER LLP, Los Angeles, California, for Amici The Copyright Alliance and International Anticounterfeiting Coalition. Mitchell L. Stoltz,
ELECTRONIC FRONTIER FOUNDATION, San
Francisco, California, for Amicus Electronic Frontier
Foundation.
-----------------------------------------------------------------------

GREGORY, Chief Judge:
This appeal concerns whether a defendant, sued
by twelve U.S. record companies for alleged copyright
infringement, is subject to specific personal jurisdiction in Virginia. The district court, in granting the defendant’s motion to dismiss, concluded that he is not
subject to personal jurisdiction in any federal forum.
We disagree and, for the reasons that follow, reverse
the ruling of the district court and remand for further
proceedings.
I.
On August 8, 2018, Plaintiffs–Appellants—twelve
record companies that produce, distribute, and license
approximately 85% of commercial sound recordings
in the United States1—commenced this action against
1

More specifically, they are UMG Recordings, Inc.; Capitol
Records, LLC; Warner Bros. Records Inc.; Atlantic Recording Corporation; Elektra Entertainment Group Inc.; Fueled by Ramen
LLC; Nonesuch Records Inc.; Sony Music Entertainment; Sony
Music Entertainment US Latin LLC; Arista Records LLC; LaFace
Records LLC; and Zomba Recording LLC.

App. 4
Defendant-Appellee Tofig Kurbanov. Appellants are all
Delaware corporations, with eight having their principal place of business in New York, three in California,
and one in Florida. Kurbanov, born in Rostov-on-Don,
Russia, is a Russian citizen who still resides in Rostovon-Don.
According to Appellants’ complaint, Kurbanov
owns and operates the websites www.flvto.biz (“FLVTO”)
and www.2conv.com (“2conv,” and together, the “Websites”). The Websites offer visitors a “stream-ripping”
service through which audio tracks may be extracted
from videos available on various platforms (e.g.,
YouTube) and converted into a downloadable format
(e.g., mp3). A large portion, perhaps a majority, of the
streams ripped using the Websites is alleged to derive
unlawfully from YouTube videos.
The Websites, however, are capable of ripping the
audio components from a wide variety of sources. According to Kurbanov, “professors or students might
choose to download the audio portions of lectures for
later reference and playback,” “bands may want to capture the audio tracks from their live performances
that they have captured on video,” or “parents may
want the audio portion of a school concert that they
recorded.” J.A. 68. Neither Appellants nor YouTube
have sanctioned any illicit ripping of audio streams. Indeed, according to Appellants, the Websites’ conversion
process circumvents the technological measures implemented by YouTube to control access to content maintained on its servers and to prevent illicit activities
such as stream ripping.

App. 5
The Websites are free to use, and visitors need not
create an account or register any information to use
the stream ripping services. Visitors, however, must
agree to the Websites’ Terms of Use by checking a box
before they can download any audio files. The Terms of
Use explain that they “constitute a contractual agreement between [the visitor] and [FLVTO or 2conv]” and
that they give Kurbanov “the right to take appropriate
action against any user . . . including civil, criminal,
and injunctive redress.” J.A. 158, 168. The Terms of Use
also compel visitors to submit and consent to personal
jurisdiction in Russia and anywhere else they can be
found. Beyond requiring visitors to accept the Terms
of Use, Kurbanov does not maintain any relationship
with visitors to the Websites.
Since visitors do not pay to use stream ripping services, virtually all revenues generated by the Websites
come from advertisements. Kurbanov does not sell advertising space on the Websites directly to advertisers.
Instead, he sells spaces on the Websites to advertising
brokers, most of whom are based in Ukraine but at
least two are based in the United States (i.e., MGID in
New York and Advertise.com in California). The advertising brokers then resell those spaces to advertisers.
According to the complaint, some of the advertising
brokers and advertisers are interested in the Websites’
“geolocation” or “geo-targeting” capabilities. That is,
advertising brokers or advertisers might want to display specific advertisements to specific blocks of countries, states, or even cities.

App. 6
Notably, according to Kurbanov, he has little control over the relationship between advertising brokers
and advertisers. For instance, neither the Websites
themselves nor advertising spaces for sale are advertised in any way in the United States or anywhere else.
Kurbanov also does not have any direct relationship or
communication with any of the advertisers, only brokers. He further has no control over the selection of
any location-specific advertising. The privacy policies
on the Websites, though, explain that visitors’ IP addresses, countries of origin, and other non-personal
information may be collected “to provide targeted advertising.” J.A. 176, 178.
The Websites are successful, in part, because they
are two of the most popular stream-ripping websites in
the world and are among the most popular websites of
any kind on the Internet. According to Kurbanov’s own
data, between October 2017 and September 2018, the
Websites attracted well over 300 million visitors from
over 200 distinct countries around the world.2 Together, the Websites attracted over 30 million visitors
(or about 10% of all traffic) from the United States. Indeed, of all the visitors to FLVTO and 2conv, the United
States was the third and fourth most visited country,
respectively.
Within the United States, hundreds of thousands
of visitors came from Virginia during the same period.
Of all visitors to FLVTO, nearly 500,000 (or about 2%
2

The Websites are also available in approximately two dozen
languages.

App. 7
of all domestic visitors) came from Virginia, making it
the 13th most popular state. Similarly, about 95,000
(or about 2%) of 2conv’s domestic visitors came from
Virginia, making it the 11th most popular state.3
Beyond visitors, the Websites have some other
connections to the United States generally and Virginia more specifically. The Websites’ domain names
are registered with www.GoDaddy.com, a U.S.-based
registrar of domain names. The Websites’ top-level domains—the suffixes “.com” and “.biz”—are administered by the companies Neustar, Inc. (FLVTO) and
VeriSign, Inc. (2conv), both of which are headquartered
in Virginia. The Websites have also registered a Digital
Millennium Copyright Act agent with the U.S. Copyright Office. Finally, until July 2018, the Websites’
servers were hosted by Amazon Web Services, which
has servers physically located in Virginia.4
Essentially all of the work that Kurbanov has performed on the Websites has been performed in Russia,
and he has never performed any work on the Websites
from within the United States. He also operates the
Websites entirely from Russia. He has never had employees anywhere in the United States or owned or
leased real estate anywhere here. Neither has he held
a bank account or paid taxes in the United States.
Kurbanov has never been to Virginia or anywhere else
3

The figures for the number of visits, as opposed to unique
visitors, are proportionally similar.
4
Since July 2018, the Websites have been hosted by Hetzner
Online GmbH, a German-based company without servers anywhere in the United States.

App. 8
in the United States and claims that it would be extremely burdensome and costly for him to travel to
Virginia or anywhere else in the United States for trial
and other proceedings. Among other reasons, he does
not currently have a visa to visit, has never applied for,
or has never obtained a visa to visit the United States,
and it would be extremely difficult for him to do so.5
In their complaint, Appellants alleged that the
Websites are a facilitator of music piracy and asserted
five claims for separate violations of the Copyright Act.
As to personal jurisdiction, Appellants alleged the
district court had specific jurisdiction under Federal
Rule of Civil Procedure 4(k)(1) because of Kurbanov’s
contacts with Virginia and, in the alternative, under
Rule 4(k)(2), because of his contacts with the United
States more generally. In response, Kurbanov timely
filed a motion to dismiss for lack of personal jurisdiction, or in the alternative, transfer the action to the
district court for the Central District of California.
On January 12, 2019, the district court granted
Kurbanov’s motion to dismiss for lack of personal jurisdiction. The district court found the Websites are
semi-interactive, visitors’ interactions with them are
non-commercial in nature, and there were no other acts
by Kurbanov that established purposeful targeting. As
5

According to the Department of State, visa services are
available in Moscow, Yekaterinburg, and Vladivostok. See
https://ru.usembassy.gov/visas (saved as ECF opinion attachment).
Kurbanov states that, from where he lives in Rostov-on-Don, it is
a 12-hour drive to Moscow, a 28-hour drive to Yekaterinburg, and
nearly a 12-hour flight to Vladivostok.

App. 9
a result, Kurbanov did not purposefully avail himself
of the benefits and protections of either Virginia or the
United States. The district court then concluded that
exercising personal jurisdiction over Kurbanov in any
federal forum would violate due process under both
Rule 4(k)(1) and 4(k)(2).6
On January 31, 2019, Appellants filed a timely notice of appeal.
II.
We review de novo the district court’s ruling that
it lacked personal jurisdiction under Federal Rule of
Civil Procedure 12(b)(2). Tire Eng’g & Distrib., LLC v.
Shandong Linglong Rubber Co., Ltd., 682 F.3d 292, 300
(4th Cir. 2012). Under Rule 12(b)(2), a defendant “must
affirmatively raise a personal jurisdiction challenge,
but the plaintiff bears the burden of demonstrating
personal jurisdiction at every stage following such a
challenge.” Grayson v. Anderson, 816 F.3d 262, 267 (4th
Cir. 2016). The plaintiff must establish personal jurisdiction by a preponderance of the evidence but need
only make a prima facie showing. Combs v. Bakker, 886
F.2d 673, 676 (4th Cir. 1989). In considering whether a
plaintiff has met this burden, a court may look beyond
the complaint to affidavits and exhibits in order to
6

Having reached this conclusion, the district court declined
to engage in a reasonability analysis and denied Appellants’ request for jurisdictional discovery. The court also found that it
need not address whether transfer to the Central District of California would be appropriate as that venue would also be without
jurisdiction.

App. 10
assure itself of personal jurisdiction. Grayson, 816 F.3d
at 269. A court must also “construe all relevant pleading allegations in the light most favorable to the plaintiff, assume credibility, and draw the most favorable
inferences for the existence of jurisdiction.” Combs, 886
F.2d at 676.
III.
As a threshold matter, the parties agree that there
is no general personal jurisdiction over Kurbanov in
Virginia. They instead dispute whether there is specific personal jurisdiction over Kurbanov in Virginia,
which Appellants assert under Rule 4(k)(1) or, in the
alternative, Rule 4(k)(2).
Rule 4(k)(1) provides that the district court may
exercise personal jurisdiction over Kurbanov if he is
“subject to the jurisdiction of a court of general jurisdiction in the state where the district court is located,”
i.e., Virginia. Fed. R. Civ. P. 4(k)(1). That exercise of personal jurisdiction over Kurbanov is lawful “if [1] such
jurisdiction is authorized by the long-arm statute of
the state in which it sits and [2] the application of the
long-arm statute is consistent with the due process
clause of the Fourteenth Amendment.” Consulting
Eng’rs Corp. v. Geometric Ltd., 561 F.3d 273, 277 (4th
Cir. 2009). Here, Virginia’s long-arm statute7 extends
7

Virginia’s long-arm statute specifically provides that a
court “may exercise personal jurisdiction over a person . . . as to a
cause of action arising from the person’s . . . transacting any business in [the state].” Va. Code Ann. § 8.01-328.1(A)(1).

App. 11
personal jurisdiction over nonresident defendants to
the full extent permitted by the Fourteenth Amendment’s Due Process Clause. See, e.g., CFA Inst. v. Inst.
of Chartered Fin. Analysts of India, 551 F.3d 285, 293
(4th Cir. 2009); Peninsula Cruise, Inc. v. New River
Yacht Sales, Inc., 257 Va. 315, 512 S.E.2d 560 (1999).
“Because Virginia’s long-arm statute is intended to
extend personal jurisdiction to the extent permissible
under the due process clause,” the statutory and constitutional inquiries merge into one inquiry. Consulting Eng’rs Corp., 561 F.3d at 277 (citation omitted).
Thus, the district court has jurisdiction over a nonresident defendant, like Kurbanov, if the exercise of
such jurisdiction comports with the strictures of constitutional due process.
Rule 4(k)(2) similarly provides that the district
court may exercise personal jurisdiction over Kurbanov
if he is “not subject to jurisdiction in any state’s courts
of general jurisdiction” and doing so would be consistent with constitutional due process. Fed. R. Civ. P.
4(k)(2). The district court performs the same due process analysis as the analysis under Rule 4(k)(1), only
the analysis is applied to the entirety of the United
States, as opposed to Virginia. See Base Metal Trading
v. OJSC Novokuznetsky Aluminum Factory, 283 F.3d
208, 215 (4th Cir. 2002) (“Rule 4(k)(2) allows a federal
court to assert jurisdiction in cases ‘arising under federal law’ when the defendant is not subject to personal
jurisdiction in any state court, but has contacts with
the United States as a whole.”).

App. 12
To meet the constitutional due process requirements for personal jurisdiction, whether under Rule
4(k)(1) for Virginia or Rule 4(k)(2) for the United
States, Kurbanov must have “minimum contacts” such
that “the maintenance of the suit does not offend traditional notions of fair play and substantial justice.”
Consulting Eng’rs Corp., 561 F.3d at 277 (quoting Int’l
Shoe Co. v. Wash., 326 U.S. 310, 316 (1945)). The minimum contacts inquiry requires Appellants to show
that Kurbanov “purposefully directed his activities at
the residents of the forum” and that Appellants’ causes
of action “arise out of ” those activities. Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 472 (1985) (citation
and quotation omitted). The inquiry is designed to ensure that Kurbanov is not “haled into a jurisdiction
solely as a result of random, fortuitous, or attenuated
contacts.” Id. at 475. In other words, it protects him
from having to defend himself in a forum where he did
not anticipate being sued. See World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 297 (1980); see also
ESAB Group, Inc. v. Centricut, Inc., 126 F.3d 617, 623
(4th Cir. 1997) (underscoring that minimum contacts
must have been so substantial that “they amount to a
surrogate for presence and thus render the exercise of
sovereignty just”).
More recently, the Supreme Court also stressed
that the minimum contacts analysis must focus “on
the relationship among the defendant, the forum, and
the litigation.” Walden v. Fiore, 571 U.S. 277, 283 (2014)
(explaining that the “ ‘minimum contacts’ analysis
looks to the defendant’s contacts with the forum State

App. 13
itself, not the defendant’s contacts with persons who
reside there”); see Bristol–Myers Squibb Co. v. Superior
Court, 137 S. Ct. 1773, 1781 (2017) (“In order for a
court to exercise specific jurisdiction over a claim,
there must be an affiliation between the forum and the
underlying controversy, principally, [an] activity or an
occurrence that takes place in the forum State.”).
We have synthesized the due process requirements for asserting specific personal jurisdiction into
a three-prong test: “(1) the extent to which the defendant purposefully availed itself of the privilege of
conducting activities in the State; (2) whether the
plaintiffs’ claims arise out of those activities directed
at the State; and (3) whether the exercise of personal
jurisdiction would be constitutionally reasonable.”
Consulting Eng’rs Corp., 561 F.3d at 278 (quoting ALS
Scan, Inc. v. Digital Serv. Consultants, Inc., 293 F.3d
707, 712 (4th Cir. 2002) (quotations and citations
omitted)). The district court concluded Kurbanov did
not take any actions to purposefully avail himself of
Virginia, and Appellants’ claims did not arise out of
forum-related activities. We disagree with these determinations and will now address each prong in turn.
A.
The first prong, purposeful availment, concerns
whether and to what extent “the defendant purposefully avail[ed] himself of the privilege of conducting
business under the laws of the forum state.” Consulting Eng’rs Corp., 561 F.3d at 278. We have previously

App. 14
noted that this prong is not susceptible to a mechanical
application and set forth a list of various nonexclusive
factors to consider:
(1) whether the defendant maintained offices
or agents in the State; (2) whether the defendant maintained property in the State; (3)
whether the defendant reached into the State
to solicit or initiate business; (4) whether the
defendant deliberately engaged in significant
or long-term business activities in the State;
(5) whether a choice of law clause selects the
law of the State; (6) whether the defendant
made in-person contact with a resident of the
State regarding the business relationship; (7)
whether the relevant contracts required performance of duties in the State; and (8) the
nature, quality, and extent of the parties’ communications about the business being transacted.
Sneha Media & Entm’t, LLC v. Associated Broad. Co.
P. Ltd., 911 F.3d 192, 198–99 (4th Cir. 2018) (citing
Consulting Eng’rs Corp., 561 F.3d at 278). Relevant to
this analysis are the quality and nature of the defendant’s connections, not merely the number of contacts
between the defendant and the forum state. Tire Eng’g,
682 F.3d at 301. Through an analysis of these nonexclusive factors, if a court finds that Kurbanov has
availed himself of the privilege of conducting business
in Virginia, specific personal jurisdiction exists. See
Consulting Eng’rs Corp., 561 F.3d at 278 (“[B]ecause
[the defendant’s] activities are shielded by the benefits
and protections of the forum’s laws it is presumptively

App. 15
not unreasonable to require him to submit to the burdens of litigation in that forum as well.” (alterations in
original) (quoting Burger King, 471 U.S. at 476)).
In the context of online activities and websites, as
here, we have also recognized the need to adapt traditional notions of personal jurisdictions. We have
adopted the “sliding scale” model articulated in Zippo
Manufacturing Co. v. Zippo Dot Com, Inc., 952 F. Supp.
1119 (W.D. Pa. 1997), to help determine when a defendant’s online activities are sufficient to justify the exercise of personal jurisdiction. See ALS Scan, 293 F.3d
at 707.8 Regardless of where on the sliding scale a defendant’s web-based activity may fall, however, “[w]ith
respect to specific jurisdiction, the touchstone remains
that an out-of-state person have engaged in some activity purposefully directed toward the forum state . . .
creat[ing] a substantial connection with the forum
state.” ESAB Grp., Inc., 126 F.3d at 625 (internal quotation marks and alteration omitted).
With these guiding principles in mind, we conclude that Kurbanov’s contacts with Virginia are sufficient to establish purposeful availment. As an initial
matter, the Websites are certainly interactive to a
8

The Zippo test establishes a sliding scale—interactive,
semi-interactive, and passive—and states that the exercise of
personal jurisdiction is justified when a nonresident defendant
“(1) directs electronic activity into the State, (2) with the manifested intent of engaging in business or other interactions within
the State, and (3) that activity creates, in a person within the
State, a potential cause of action cognizable in the State’s courts.”
ALS Scan, 293 F.3d at 713–14 (citing Zippo, 952 F. Supp. at
1124).

App. 16
degree, since they collect certain personal information
from visitors and visitors must agree to certain terms
and conditions in order to access downloadable files.
Whether the Websites are highly interactive or semiinteractive, however, is not determinative for purposes
of personal jurisdiction. We recently recognized that
“[t]he internet we know today is very different from the
internet of 1997, when Zippo was decided.” Fidrych v.
Marriott Int’l, Inc., 952 F.3d 124, 141 n.5 (4th Cir. 2020)
(noting, on today’s Internet, “[i]t is an extraordinarily
rare website that is not interactive at some level”) (citation omitted). Were we to “attach too much significance on the mere fact of interactivity, we risk losing
sight of the key issue in a specific jurisdiction case—
whether the defendant has purposefully directed [his]
activities at residents of the forum.” Id. at 142.
Instead, we find there are more than sufficient
facts raised to conclude that Kurbanov has purposefully availed himself of the privilege of conducting
business in Virginia and thus had a “fair warning” that
his forum-related activities could “subject [him] to [Virginia’s] jurisdiction.” See Burger King, 471 U.S. at 472.
To start, his contacts with Virginia are plentiful. In the
relevant period, between October 2017 and September
2018, more than half a million unique visitors went to
the Websites, totaling nearly 1.5 million visits. These
visits made Virginia one of the most popular states in
terms of unique visitors as well as number of visits.
In addition to the volume of visitors, we also find
the nature of the repeated interaction between the
Websites and visitors to be a commercial relationship.

App. 17
Of course, the Websites are free to use, and no cash is
exchanged. But the mere absence of a monetary exchange does not automatically imply a non-commercial
relationship. It is hardly unusual for websites to be
free to use in today’s Internet because many corporations “make money selling advertising space, by directing ads to the screens of computers employing their
software.” See Metro-Goldwyn-Mayer Studios Inc. v.
Grokster, Ltd., 545 U.S. 913, 926–27 (2005).
Here, the visitors’ acts of accessing the Websites
(and downloading the generated files) are themselves
commercial relationships because Kurbanov has made
a calculated business choice not to directly charge visitors in order to lure them to his Websites. Kurbanov
then requires visitors to agree to certain contractual
terms, giving him the authority to collect, among other
information, their IP addresses and country of origin.
Far from being indifferent to geography, any advertising displayed on the Websites is directed towards specific jurisdictions like. Virginia. Kurbanov ultimately
profits from visitors by selling directed advertising
space and data collected to third-party brokers, thus
purposefully availing himself of the privilege of conducting business within Virginia.
We are not persuaded by Kurbanov’s attempt to
distance himself from this commercial arrangement by
contending that any commercial relationship that may
exist lies with advertising brokers, as opposed to directly with the advertisers or visitors. According to
Kurbanov, he lacks any control over what advertising
is displayed because of this lack of a commercial

App. 18
relationship. But at a minimum, Kurbanov facilitates
targeted advertising by collecting and selling visitors’
data. While he has outsourced the role of finding advertisers for the Websites to brokers, the fact remains
that he earns revenues precisely because the advertising is targeted to visitors in Virginia. Moreover, as
one court appropriately concluded, “it is immaterial
whether the third-party advertisers or [the defendant]
targeted California residents,” or Virginia residents
in Kurbanov’s case. See Mavrix Photo, Inc. v. Brand
Techs., Inc., 647 F.3d 1218, 1230 (9th Cir. 2011). “The
fact that the advertisements targeted California [or
here, Virginia] residents indicates that [the defendant]
knows—either actually or constructively—about its
California [Virginia] user base, and that it exploits
that base for commercial gain by selling space on its
website for advertisements.” See id.; see also uBID, Inc.
v. GoDaddy Group, Inc., 623 F.3d 421, 428 (7th Cir.
2010) (rejecting the defendant’s attempt to “distance
itself from Illinois by casting the Illinois market as
simply one among many, a place of no particular interest to it”). In this instance, we reject the notion that
the relationship between Kurbanov’s Websites and
their visitors can hardly be labeled commercial.
We also find several other relevant facts, together
with those already discussed, suggest that Kurbanov
intended to invoke the protections of Virginia and the
United States more generally. For instance, Kurbanov
registered a Digital Millennium Copyright Act agent
with the U.S. Copyright Office, thereby qualifying the
Websites for certain safe harbor defenses to copyright

App. 19
infringement claims. Kurbanov has also contracted
with U.S.-based advertising brokers, registered his
Websites with U.S.-based domain registers, and until
recently relied on U.S.-based servers. These facts
might not be individually sufficient to confer specific
personal jurisdiction, but when viewed in the context
of other jurisdictionally relevant facts, they contradict
Kurbanov’s contention that he could not have anticipated being haled into court in Virginia.
In sum, we conclude Kurbanov’s contacts with Virginia are quantitatively and qualitatively sufficient to
demonstrate that he purposefully availed himself of
the privilege of conducting business here.
B.
The second prong, whether Appellants’ claims
arise out of the activities directed at the forum, concerns to what extent Kurbanov’s contacts with Virginia
form the basis of the suit. Consulting Eng’g, 561 F.3d
at 278–79 (citations omitted). “The analysis here is
generally not complicated. Where activity in the forum
state is ‘the genesis of [the] dispute,’ this prong is easily satisfied.” Tire Eng’g, 682 F.3d at 303 (citing CFA
Inst., 551 F.3d at 295). And Appellants’ claims arise out
of activities directed at the forum state if “substantial
correspondence and collaboration between the parties,
one of which is based in the forum state, forms an important part of the claim.” See id. at 295–96.
Here, we find that Appellants’ claims arise out of
activities directed at Virginia. Kurbanov made two

App. 20
globally accessible websites and Virginia visitors used
them for alleged music piracy. In addition, Kurbanov
knew the Websites were serving Virginian visitors and
yet took no actions to limit or block access, all while
profiting from the data harvested from the same visitors. It is hardly surprising, then, that Kurbanov’s contacts with Virginia were “substantial and form[ed] a
central part of [Appellants’] claims.” See Tire Eng’g,
682 F.3d at 306.
Kurbanov, not directly addressing this prong, insists that Appellants are improperly attempting to elevate the significance of non-claim related contacts
with Virginia. For instance, Kurbanov points to Appellants’ focus on the raw number of viewers and other
attenuated contractual agreements with U.S.-based
businesses. But, contrary to Kurbanov’s contention,
the Websites’ large audience in Virginia for alleged
music piracy and the sale of visitors’ data to advertising brokers are what gave rise to Appellants’ copyright
infringement claims. See Bristol–Myers Squibb Co.,
137 S. Ct. at 1780 (recognizing there must be “an affiliation between the forum and the underlying controversy, principally, [an] activity or an occurrence that
takes place in the forum State”) (citation omitted).
Indeed, this is not a situation where a defendant
merely made a website that happens to be accessible
in Virginia. See, e.g., Scottsdale Capital Advisors Corp.
v. The Deal, LLC, 887 F.3d 17, 21 (1st Cir. 2018). Rather,
Kurbanov actively facilitated the alleged music piracy
through a complex web involving Virginia visitors,
advertising brokers, advertisers, and location-based

App. 21
advertising. From Virginia visitors, he collected personal data as they visited the Websites. To the advertising brokers, he sold the collected data and
advertising spaces on the Websites. For end advertisers, he enabled location-based advertising in order to
pique visitors’ interest and solicit repeated visits. And
through this intricate network, Kurbanov directly
profited from a substantial audience of Virginia visitors and cannot now disentangle himself from a web
woven by him and forms the basis of Appellants’
claims. Thus, we find these facts to adequately establish an “affiliation between [Virginia] and the underlying controversy.” See Bristol–Myers Squibb Co., 137
S. Ct. at 1780.
In sum, we conclude Appellants’ copyright infringement claims arise out of Kurbanov’s activities
directed at Virginia.
***
As previously discussed, we also find Kurbanov’s
contacts sufficiently show he purposefully availed himself of the privilege of conducting business in Virginia.
Therefore, the exercise of specific personal jurisdiction
under Rule 4(k)(1) is appropriate if it is constitutionally reasonable.9 We recognize the district court did not
perform a reasonability analysis in the first instance,
so we cannot address this prong on appeal. See Lovelace v. Lee, 472 F.3d 174, 203 (4th Cir. 2006) (emphasizing that we are “a court of review, not of first view”
9

Having reached this conclusion, we need not address
whether personal jurisdiction is appropriate under Rule 4(k)(2).

App. 22
(internal quotation marks omitted)). Accordingly, the
district court on remand should perform the required
reasonability analysis.
IV.
For the foregoing reasons, we reverse the district
court’s ruling and remand for proceedings consistent
with this opinion.
REVERSED AND REMANDED

App. 23
FILED: June 26, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1124
(1:18-cv-00957-CMH-TCB)
-----------------------------------------------------------------------

UMG RECORDINGS, INC.; CAPITAL RECORDS, LLC;
WARNER BROS. RECORDS INC.; ATLANTIC RECORDING CORPORATION; ELEKTRA ENTERTAINMENT GROUP INC.; FUELED BY RAMEN
LLC; NONESUCH RECORDS INC.; SONY MUSIC
ENTERTAINMENT; SONY MUSIC ENTERTAINMENT US LATIN LLC; ARISTA RECORDS LLC;
LAFACE RECORDS LLC; ZOMBA RECORDING LLC
Plaintiffs - Appellants
v.
TOFIG KURBANOV, d/b/a FLVTO.BIZ, a/k/a
2CONV.COM; DOES 1-10
Defendants - Appellees
COPYRIGHT ALLIANCE; INTERNATIONAL
ANTICOUNTERFEITING COALITION; MOTION
PICTURE ASSOCIATION OF AMERICA, INC.;
ASSOCIATION OF AMERICAN PUBLISHERS
Amici Supporting Appellants
ELECTRONIC FRONTIER FOUNDATION
Amicus Supporting Appellees

App. 24
-----------------------------------------------------------------------

JUDGMENT
-----------------------------------------------------------------------

In accordance with the decision of this court, the
judgment of the district court is reversed. This case is
remanded to the district court for further proceedings
consistent with the court’s decision.
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App. P.
41.
/s/ PATRICIA S. CONNOR, CLERK

App. 25
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
UMG RECORDINGS, INC.,
et al.,
Plaintiffs,
v.
TOFIG KURBANOV, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.
1:18-cv-00957

MEMORANDUM OPINION
(Filed Jan. 22, 2019)
THIS MATTER comes before the Court on Defendant Tofig Kurbanov’s Motion to Dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(2), or, alternatively, to transfer the case to the Central District of
California.
Plaintiffs are twelve record companies that produce, distribute, and license the majority of commercial sound recordings in the United States. All of them
are Delaware companies, with eight having their principal place of business in New York, three in California,
and one in Florida.
Defendant is a Russian national living and working in the Russian Federation. Defendant owns and operates two websites, www.FLVTO.biz (FLVTO) and
www.2conv.com (2conv) (collectively the “Websites”).

App. 26
The Websites are devoted to “stream ripping” which is
a process by which users may “rip” a file from a streaming platform and convert it to a downloadable file format, such as an mp3. Terrica Carrington, “StreamRipping” A Growing Threat to the Music Industry,
COPYRIGHT ALLIANCE (Nov. 10, 2016), https://copy
rightalliance.org/ca_post/stream-ripping-growing-threatmusic-industry/. A large portion of the files ripped using the Websites come from YouTube videos and are
frequently music videos, however, the Websites are
able to stream rip from a wide variety of sources. Neither Plaintiffs nor YouTube authorize or condone the
ripping of files from YouTube videos.
The Websites are visited very frequently by users
around the world. The Websites are available in
twenty-three different languages and are most used in
Brazil, Italy, and Mexico. FLVTO received over 263
million visits between October 2017 and September
2018 making it the 322nd most visited website in the
world. 2conv also receives millions of visits each
month. A significant portion of this traffic comes from
the United States and Virginia more specifically. Approximately 26.3 million of FLVTO’s visitors last year,
or 9.92%, come from the United States. Nearly 500,000
of FLVTO’s visitors came from Virginia. 2conv had similar percentages of its users from the United States
and Virginia respectively.
The Websites are free to users and users do not
have to register to use the Websites’ capabilities. Users
do have to agree to certain terms of use, but Defendant

App. 27
does not track or maintain a relationship with individual users beyond this agreement.
Defendant earns revenue from the Websites only
through advertisements posted on them. Some of the
advertisements placed on the Websites have geotargeting capabilities, which means that the advertisements can be targeted to users based on their location.
A similar function is available for interest-based targeting of advertisements on the Websites. Defendant
sells the advertising placements to an advertising broker who then resells them to actual advertisers. Defendant deals directly with a broker in the Ukraine
and does not deal with anyone in the United States or
Virginia with regard to the sale or placement of advertisements. Defendant does not advertise the Websites
in any way in the United States or elsewhere.
Defendant has the Websites’ domain names registered with GoDaddy.com, a United States based domain-name registrar. Defendant also has top-level
domains for the Websites administered by VeriSign,
Inc. (2conv) and Neustar, Inc. (FLVTO) both of which
are headquartered in Northern Virginia. As of July
2018, the Websites were, and have since been, hosted
by Hetzner Online Gmbh, a German based organization without servers in the United States. For nearly
three years prior to July 2018, the Websites were
hosted by Amazon Web Services which has servers
physically located in Ashburn, Virginia.
Defendant operates the Websites entirely from
Russia. Defendant has not directly done business in

App. 28
the United States or Virginia, nor does he have an
agent in either forum. Defendant has no bank account
in the United States, nor has he paid taxes here.
Plaintiffs allege that the Websites are a vehicle for
music piracy and copyright infringement. Plaintiffs
filed this lawsuit as an action for copyright infringement under the Copyright Act of the United States, 17
U.S.C. §§ 101 et seq., on August 3, 2018. Defendant
moves to dismiss the Complaint for lack of personal jurisdiction, or, alternatively, to have the case transferred to the Central District of California.
A motion to dismiss tests the sufficiency of the
complaint. See Republican Party of N.C. v. Martin, 980
F.2d 943, 952 (4th Cir. 1992). On a Rule 12(b)(2) motion, a defendant must affirmatively challenge personal jurisdiction and the plaintiff bears the burden of
demonstrating the existence of personal jurisdiction at
every stage following the defendant’s challenge. Grayson v. Anderson, 816 F.3d 262, 267 (4th Cir. 2016). A
plaintiff must establish personal jurisdiction by a preponderance of the evidence but need only make a
prima facie showing. Combs v. Bakker, 886 F.2d 673,
676 (4th Cir. 1989). This prima facie standard is “tolerant.” See id., at 676-77. Further, a court “must draw all
reasonable inferences arising from the proof, and resolve all factual disputes, in the plaintiff ’s favor.”
Mylan Labs., Inc. v. Akzo, N.V., 2 F.3d 56, 60 (4th Cir.
1993) (citing Combs, 886 F.2d at 676). A court may look
beyond the complaint to affidavits and exhibits in order to assure itself of jurisdiction. Grayson, 816 F.3d at
269.

App. 29
The Defendant challenges this Court’s personal
jurisdiction over him. Plaintiffs state that there is personal jurisdiction over Defendant under either Federal
Rule of Civil Procedure 4(k)(1) or 4(k)(2).
The Court must evaluate whether it has personal
jurisdiction over Defendant by looking at whether he
is “subject to the jurisdiction of a court of general jurisdiction in the state” where the Court is located, i.e. in
Virginia. Fed. R. Civ. P. 4(k)(1)(A). This is done by considering the two prongs of whether Virginia’s long-arm
statute provides jurisdiction and whether the jurisdiction comports with due process. CFA Inst. v. Inst. of
Chartered Fin. Analysts of India, 551 F.3d 285, 293
(4th Cir. 2009). Numerous state and federal courts
have construed Virginia’s long-arm statute to extend
personal jurisdiction over nonresident defendants to
the full extent permitted by the Due Process Clause of
the Fourteenth Amendment. Va. Code Ann. § 8.01328.1; CFA Inst., 551 F.3d at 293; English & Smith v.
Metzger, 901 F.2d 36, 38 (4th Cir. 1990); Peninsula
Cruise, Inc. v. New River Yacht Sales, Inc., 257 Va. 315,
512 S.E.2d 560, 562 (1999). Where the long-arm statute’s authorization is coterminous with the full limits
of due process, the two inquiries merge and the court
may consider solely whether due process is satisfied.
Consulting Eng’rs Corp. v. Geometric Ltd., 561 F.3d
273, 277 (4th Cir. 2009); CFA Inst., 551 F.3d at 293. A
court conducts the same due process analysis under
Rule 4 (k) (2), only the analysis is applied to all fifty
states, as opposed to the single forum state. See Base

App. 30
Metal Trading v. OJSC Novokuznetsky Aluminum Factory, 283 F.3d 208, 215 (4th Cir. 2002).
Personal jurisdiction was historically limited by
the physical presence of a defendant in the territorial
jurisdiction of the court. See Int’l Shoe Co. v. Washington, 326 U.S. 310, 316 (1945); Pennoyer v. Neff, 95 U.S.
714, 733 (1877). Over time the Supreme Court recognized, however, that due process only requires that a
defendant have certain “minimum contacts” within the
territory such that a suit would not offend “traditional
notions of fair play and substantial justice.” Int’l Shoe
Co., 326 U.S. at 316 (quoting Milliken v. Meyer, 311 U.S.
457, 463 (1940)). While there has been some relaxation
in the standards of personal jurisdiction, the Supreme
Court has noted that it would be “a mistake to assume
that this trend heralds the eventual demise of all restrictions on . . . personal jurisdiction.” Hanson v.
Denckla, 357 U.S. 235, 250-51 (1958).
Personal jurisdiction comes in two flavors: (1) general jurisdiction and (2) specific jurisdiction. General
jurisdiction may be established if the defendant’s activities in the territory meet the demanding standard
of “continuous and systematic.” Helicopteros Nacionales de Colombia, S.A. v. Hall, 466 U.S. 408, 415-16
(1984); ALS Scan, Inc. v. Digital Service Consultants,
Inc., 293 F.3d 707, 712 (4th Cir. 2002). General jurisdiction may be used to maintain a suit against a defendant even when it does not arise out of the
defendant’s activities in the forum state. ALS Scan,
293 F.3d at 712. In contrast specific jurisdiction allows
for a suit to be maintained only when the defendant’s

App. 31
contacts with the forum are also the basis for the suit.
Id. To determine if specific jurisdiction exists, a court
must consider (1) the extent to which the defendant
purposefully availed itself of the privilege of conducting activities in the forum state; (2) whether the plaintiffs’ claims arise out of those activities; and (3)
whether the exercise of personal jurisdiction would be
constitutionally “reasonable.” Carefirst of Maryland,
Inc. v. Carefirst Pregnancy Centers, Inc., 334 F.3d 390,
397 (4th Cir. 2003); ALS Scan, 293 F.3d at 711-12.
Here, the parties do not dispute that Defendant’s
actions were not “continuous and systematic” enough
to create general jurisdiction over him. Thus, the Court
must determine whether there is specific jurisdiction.
The Court will analyze whether the Websites’ contacts
with Virginia, and the United States as a whole, were
sufficient to establish specific jurisdiction as those are
the contacts from which this action arises. Carefirst of
Maryland, 334 F.3d at 397 (second prong requiring the
action to arise out of the contacts with the forum).
The Court must first consider whether the contacts Defendant had with Virginia and the United
States through the Websites constitutes purposeful
availment. Id. Purposeful availment is required so that
one is not “haled into a jurisdiction solely as a result of
‘random,’ ‘fortuitous,’ or ‘attenuated’ contacts.” Burger
King Corp. v. Rudzewicz, 471 U.S. 462, 475 (1985). Purposeful availment cannot be satisfied by the unilateral
activity of those who claim some relationship with a
nonresident defendant. Kulko v. Superior Court of California In and For City and County of San Francisco,

App. 32
436 U.S. 84, 93-94 (1978) (quoting Hanson, 357 U.S. at
253). Instead, a defendant must “purposefully direct,”
Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 774
(1984), its actions towards a forum in order to be found
to have purposely availed itself of “ ‘the benefits and
protections’ of the forum’s laws,” Burger King Corp.,
471 U.S. at 476. There must be knowing direction of
harm towards the forum state to satisfy this prong.
Calder v. Jones, 465 U.S. 783, 790 (1984).
An interesting question of purposeful availment
arises in the context of the internet where websites are
accessible globally. The Fourth Circuit has stated that
a state may exercise judicial power over a non-resident
when that person “(1) directs electronic activity into
the state, (2) with the manifested intent of engaging in
business or other interactions within the state, and (3)
that activity creates, in a person within the state, a potential cause of action cognizable in the state’s courts.”
ALS Scan, 293 F.3d at 714. This protects individuals
with passive websites or those who do not direct electronic activity into a forum with the manifest intent of
engaging business there. Id. To provide guidance in
this arena, the Fourth Circuit has adopted the sliding
scale test from Zippo Mfg. Co. v. Zippo Dot Com, Inc.,
952 F. Supp. 1119 (W.D. Penn. 1997). ALS Scan, at 713
The Zippo test provides three categories in which
to place websites: (1) interactive, (2) semi-interactive,
and (3) passive. 952 F. Supp. at 1124. An interactive
website is one through which a foreign defendant enters into contracts with residents of the state “that involve the knowing and repeated transmission of

App. 33
computer files.” Id. Interactive websites are generally
a proper basis for personal jurisdiction. Id. On the
other end of the scale are passive sites which merely
post information on the internet and are accessible by
users in foreign jurisdictions. Id. Passive websites are
improper bases for jurisdiction. Id. Finally, semi-interactive websites are somewhere in the middle because
“there have not occurred a high volume of transactions
between the defendant and residents of the foreign jurisdiction, yet which do enable users to exchange information with the host computer.” Carefirst of Maryland,
334 F.3d at 399. A court must examine “the level of
interactivity and commercial nature of the of the exchange of information” occurring on the website to
make a proper jurisdictional analysis. Zippo, 952
F. Supp. at 1124.
The Fourth Circuit has made it clear that personal
jurisdiction requires purposeful targeting of a forum
with manifest intent to engage in business there. ALS
Scan, 293 F.3d at 714; Graduate Mgmt. Admission
Council v. Raju (GMAC), 241 F. Supp. 2d 589, 594 (E.D.
Va. 2003). An evaluation of the contacts in this case
points to the absence of personal jurisdiction due to a
lack of purposeful targeting of either Virginia or the
United States.
To begin, the Websites are semi-interactive. They
allow users to share information with the host and for
files to be downloaded, but there is not a significant or
prolonged engagement between the user and the Websites. See, e.g., Alitalia-Linee Aeree Italiane S.p.A. v.
Casinoalitalia.Com, 128 F. Supp. 2d 340 (E.D. Va.

App. 34
2001) (finding an online gambling site on which users
could play online games for significant periods of time
to be highly interactive). Also, there is no evidence that
users exchanged multiple files with the Websites. See,
e.g., Bright Imperial Ltd. v. RT MediaSolutions, S.R.O.,
No. 1:11-cv-935, 2012 WL 1831536 (E.D. Va. May 18,
2012) (finding a site to be highly interactive when it
contracted with individuals to make and send multiple
videos for posting on the site). Plaintiffs attempt to describe the Websites as highly interactive due to the
million of users. This is incorrect because the number
of users cannot make a website highly interactive,
there must instead be numerous transactions between
the site and a user evidencing an ongoing relationship.
Id. at *5. Here, there is no ongoing relationship as the
Terms of Use state that the files transmitted between
the Websites and users are only stored until the user
has downloaded them. Cf. Bright Imperial, 2012 WL
1831536 at *1-2 (highly interactive site stored video
files for future viewing by other users). Further, users
do not need to create an account, sign in, or register in
order to use the Websites. This want of an ongoing, developed relationship between users and the Websites
leads to a finding that the Websites are semi-interactive.
Next, the relationship between the Websites and
the users is not based on a commercial contract. While
users of the Websites must agree to the Terms of Use,
the Websites are free to use. Defendant does earn
money from the sale of advertising space on the Websites, but all of this money comes from third party

App. 35
advertisers who Defendant does not deal with directly.
The revenue from the advertisements cannot be the
basis for finding a commercial relationship with the
users because they are separate interactions and the
due process analysis must only look at the acts from
which the cause of action arises, here, the alleged aid
in music piracy. Carefirst of Maryland, 334 F.3d at 397.
Finally, Defendant took no action through the
Websites that would demonstrate purposeful targeting
of Virginia or the United States. Defendant does not
advertise the Websites in either forum, nor does Defendant provide specific instructions or advice to users
in either forum. Cf. GMAC, 241 F. Supp. 2d at 598 (finding Rule 4(k)(2) jurisdiction when website had specific
ordering instructions for U.S. customers). The contact
that users have with the Websites is unilateral in nature and as such cannot be the basis for jurisdiction
without more. Kulko, 436 U.S. at 93-94. Users may access the Websites from anywhere on the globe and they
select their location when they use the Websites. Plaintiffs make the contention that Defendant’s tracking of
where the users are located and use of geo-targeted advertisements demonstrates that he was targeting Virginians and Americans. This is an attenuated
argument as tracking the location of a user does not
show targeting of the user or their location; instead it
is merely a recording of where the user’s unilateral act
took place. See, e.g., Intercarrier Communications LLC
v. WhatsApp Inc., 3:12-cv-776, 2013 WL 5230631, at *4
(Sept. 13, 2013 E.D. Va.) (finding no personal jurisdiction based on unilateral acts of users even where the

App. 36
defendant could users’ track locations). Even if the
Websites’ servers knew exactly where the users were
located, any interaction would still be in the unilateral
control of the users as they initiate the contacts. See
Zaletel v. Prisma Labs, Inc., 226 F. Supp. 3d 599, 610
(E.D. Va. 2016) (finding user-initiated contact to be fortuitous and not arising out of defendant created contacts with the forum). It is clear that Defendant did not
take any actions which purposefully targeted Virginia
or the United States.
As the Websites are semi-interactive, the interactions with the users are non-commercial, and there
were no other acts by the Defendant that would
demonstrate purposeful targeting, the Court finds that
Defendant did not purposefully avail himself of the
benefits and protections of either Virginia or the
United States. Due to this finding, the Court does not
need to engage in a reasonability analysis. The Court
finds that exercise of personal jurisdiction over Defendant would be unconstitutional as a violation of due
process under either Rule 4(k)(1) or 4(k)(2).
Due to the Court’s finding that personal jurisdiction is absent under either section of Rule 4(k), the
Court need not address whether transfer to the Central District of California would be appropriate as that
venue would also be without jurisdiction.

App. 37
For the reasons mentioned, the Court concludes
that it is without personal jurisdiction over Defendant.
Dismissal is granted to Defendant on all counts. An appropriate order shall issue.
/s/ Claude M. Hilton
CLAUDE M. HILTON
UNITED STATES
DISTRICT JUDGE
Alexandria, Virginia
January 22, 2019

App. 38
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
UMG RECORDINGS, INC.,
et al.,
Plaintiffs,
v.
TOFIG KURBANOV, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.
1:18-cv-00957

ORDER
(Filed Jan. 22, 2019)
In accordance with the accompanying Memorandum
Opinion, it is hereby
ORDERED that Defendant’s Motion to Dismiss
is GRANTED, and this case is dismissed.
/s/ Claude M. Hilton
CLAUDE M. HILTON
UNITED STATES
DISTRICT JUDGE
Alexandria, Virginia
January 22, 2019

App. 39
FILED: July 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1124
(1: 1 8-cv-00957-CMH-TCB)
-----------------------------------------------------------------------

UMG RECORDINGS, INC.; CAPITAL RECORDS,
LLC; WARNER BROS RECORDS INC.; ATLANTIC
RECORDING CORPORATION; ELEKTRA
ENTERTAINMENT GROUP INC.; FUELED BY
RAMEN LLC; NONESUCH RECORDS INC.;
SONY MUSIC ENTERTAINMENT; SONY MUSIC
ENTERTAINMENT US LATIN LLC; ARISTA
RECORDS LLC; LAFACE RECORDS LLC;
ZOMBA RECORDING LLC
Plaintiffs - Appellants
v.
TOFIG KURBANOV. d/b/a FLVTO.BIZ,
a/k/a 2CONV.COM; DOES 1-10
Defendants - Appellees
-----------------------------------------------------------------------

COPYRIGHT ALLIANCE; INTERNATIONAL
ANTICOUNTERFEITING COALITION; MOTION
PICTURE ASSOCIATION OF AMERICA, INC.;
ASSOCIATION OF AMERICAN PUBLISHERS
Amici Supporting Appellants
ELECTRONIC FRONTIER FOUNDATION
Amicus Supporting Appellees

App. 40
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under Fed.
R. App. P. 35. The court denies the petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

